IN THE
SUPREME COURT OF THE UNITED STATES

No. 19-238
In Re Hotze Health Wellness Center International One, LLC. , et al.,

Petitioners,
V.

Environmental Research Center,

Respondent.

AFFIDAVIT OF SERVICE
I , Jason R. Flanders, being duly sworn at;cording to the law and being over the
age of 18 upon my oath state that I did on the 23rd day of September, 2019, serve the
foregoing Brief in Opposition to Petition for Writ of Mandamus in 19-238, In Re Hotze
Health Wellness Center International One, LLC. , et al., by depositing 2 packages
containing three copies of the same, addressed to each individual respectively, and
enclosed in a postage-paid, properly addressed package, in an official depository
maintained by the U.S. Postal Service, via Priority Mail, to the parties listed below:
Lawrence J . Joseph
Law Office of Lawrence J . Joseph
1250 Connecticut Avenue, NW, Suite 700-lA
Washington, DC 20036
Tel: 202-355-9452
Email: lj@larryjoseph.com
Susan Y. Soong
Clerk of the Court
U.S. District Court, Northern District of California
San Francisco, CA 94102
Tel: 415-522-2000
Email: susan_soong@cand. uscourts. gov

That on the same date above, I sent to this Court 1 unbound and 40 copies of
the Brief in Opposition to Petition for Writ of Mandamus , via Priority Mail.
All Parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This Certificate is executed on September 23, 2019.

,Aqua Terra Aeris Law Group
490 43rd Street, Suite 108
Oakland, CA 94609
916-202-3018

State of California
County of Alameda
Subscribed and sworn to before me this 23rd day of September, 2019.

(Seal)

,

Signature_~- - ~- -.k~'
,;;; - - - - - -

